CREDIT LINE ACCOUNT AGREEMENT
AND FEDERAL DISCLOSURE STATEMENT
THIS IS YOUR CREDIT LINE ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL
TRUTH-IN-LENDING DISCLOSURE STATEMENTS, PLATINUM CLASSIC MASTERCARD, WORLD
MASTERCARD, AND PLATINUM SECURE MASTERCARD AGREEMENTS, AND ANY SPECIAL
INSTRUCTIONS REGARDING THE USE OF YOUR PLATINUM CLASSIC MASTERCARD, WORLD
MASTERCARD, AND PLATINUM SECURE MASTERCARD CREDIT CARDS, AND/OR ANY OTHER
ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS AGREEMENT CAREFULLY AND
NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases

________%

Platinum Classic Mastercard:
This APR will vary with the market based on the Prime Rate.

_______%

World Mastercard:
This APR will vary with the market based on the Prime Rate.

_______%

Platinum Secure Mastercard:
This APR will vary with the market based on the Prime Rate.
Annual Percentage Rate (APR)
For Balance Transfers

Platinum Classic Mastercard: ________%
This APR will vary with the market based on the Prime Rate.
World Mastercard: _______%
This APR will vary with the market based on the Prime Rate.
Platinum Secure Mastercard: _______%
This APR will vary with the market based on the Prime Rate.

Annual Percentage Rate (APR)
For Cash Advances

Platinum Classic Mastercard: ________%
This APR will vary with the market based on the Prime Rate.
World Mastercard: ________%
This APR will vary with the market based on the Prime Rate.
Platinum Secure Mastercard: _______%
This APR will vary with the market based on the Prime Rate.
Personal Line of Credit: _______%

Paying Interest

For Mastercard, We will not charge You interest on purchases if You pay Your entire
balance owed each month within 25 days of Your statement closing date. We will begin
charging interest on cash advances and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a Credit
Card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees



Foreign Transaction
Cash Advance
 Overdraft Transfer
 Balance Transfer

For Mastercard, except World, 1.00% of each transaction in U.S. Dollars.
For Mastercard, 5.00% of the advance.
Except Mastercard, $10.00 per transfer.
For World Mastercard, 3.00% of each transfer.

Please refer to TOP OF PAGE 2 for more important information about Your Account

Copyright Oak Tree Business Systems, Inc., 2007-2020. All Rights Reserved.

Page 1 of 5

OTBS 016Y FRB_WEB ARKA (10/20)

Fees (continued)
Penalty Fees


Returned Payment



Late Payment

For Mastercard, up to $30.00
Except Mastercard, $32.00
For Mastercard, up to $40.00
Except Mastercard, 20.00% of the interest due, $35.00 minimum

How We Will Calculate Your Balance: For Personal Line of Credit, We use a method called "daily balance." For Mastercard, We
use a method called "average daily balance (including new purchases)." In all cases, see Your Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.
Please refer to PAGE 1 for more important information about Your Account

In this Agreement, the reference to "We,” "Us," "Our" and "Credit Union" mean ARKANSAS FEDERAL CREDIT UNION ("ARKANSAS FEDERAL"). The words "You" and "Your"
mean each person accepting this Agreement. If this is a joint Account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any Platinum Classic
Mastercard, World Mastercard, or Platinum Secure Mastercard Credit Card issued to You by Us and any duplicates or renewals. Convenience Checks mean the special
Account access devices that We may provide for Your use from time to time.
You, as the Borrower, under a Credit Line Account ("Account"), understand that the following Federal Disclosure Statement and the terms and conditions found herein constitute
Our Agreement with You. You may request advances on Your Account through a variety of means which could include (but may not be limited to) telephonic requests, advance
request forms, vouchers, checks, charge slips, Convenience Checks, Check Cards, ATM Cards, Credit Cards, wire transfers, direct transfers and/or wire transfers to specific
payees identified by You, direct transfers to Your share/share draft or other Credit Union account and the like. Regardless of the means by which any advance is made, You
promise to pay Us all amounts charged to Your Account by You or by any user who has access to Your Account, with actual, apparent or implied authority for use of Your
Account, including Finance Charges and other fees or charges described herein.
FEATURE CATEGORIES. Your Account has Feature Categories which may include Personal Line of Credit (including Overdraft Protection), Platinum Classic Mastercard,
World Mastercard, or Platinum Secure Mastercard.

Variable Rate
Margin

Index

Daily Periodic
Rate

Annual
Percentage Rate

Platinum Classic Mastercard

__________

__________

____________%

____________%

World Mastercard

__________

__________

____________%

____________%

Platinum Secure Mastercard

__________

__________

____________%

____________%

____________%

____________%

Account Feature Categories

Personal Line of Credit
ADVANCES. Whenever You request a transaction, We may require You to prove
Your identity. Advances made on Your Account will be processed according to the
instructions You give Us (such as by wire transfer, direct transfer to Your Credit Union
account or by other such means) and You authorize Us to do this, or We may draw a
draft or check made payable to You and mail it to You. When the amount advanced
appears on a subsequent statement, that will be conclusive evidence of Your advance
request unless You notify Us that You disagree with any such item appearing on Your
periodic statement according to the provision of this Agreement titled "Your Billing
Rights: Keep this Document for Future Use." You understand that whether or not any
specific secured advance request is approved may be determined by how much equity
You have or will have in the shares, certificates and/or Collateral offered as security.
SECURITY. As permitted by law, to secure all transactions under this Agreement in
either joint or individual Accounts, We have the right to impress and enforce a
statutory lien against Your shares on deposit with Us (other than those deposits
established under a governmental approved tax deferral plan such as an IRA or
Keogh account), and any dividends due or to become due to You from Us to the
extent that You owe on any unpaid balance on Your Account and We may enforce
Our right to do so without further notice to You. Additionally, You agree that We
may set-off any mutual indebtedness.
You acknowledge that You own any certificates, shares and/or Collateral pledged as
security and that there are no other liens against them other than Ours. You agree to
perform all acts which are necessary to make Our security interest in the certificates,
shares and/or Collateral being pledged enforceable.
For advances under any certificate secured Feature Category, all certificates which
are pledged as Collateral must be renewed until Your outstanding Account balance
Copyright Oak Tree Business Systems, Inc., 2007-2020. All Rights Reserved.

is paid in full. Failure to renew any certificates securing any advance will cause
Your entire outstanding Account balance to become immediately due and payable.
OTHER SECURITY. Collateral (other than household goods or any dwelling) given
as security under this Agreement or for any other loan You may have with Us will
secure all amounts You owe Us now and in the future if that status is reflected
in the "Truth-In-Lending Disclosure" in any particular Agreement evidencing
such debt.
CONSENSUAL LIEN ON SHARES. You grant and consent to a lien on Your
shares with Us (except for IRA and Keogh accounts) and any dividends due
or to become due to You from Us to the extent You owe on any unpaid Credit
Card balance.
ACCOUNT RESTRICTIONS. In order to receive and maintain a Platinum Secure
Mastercard Credit Card, You agree to give Us a specific pledge of shares which will
equal Your credit limit. In the event that You default on Your Platinum Secure
Mastercard Credit Card, We may apply these shares toward the repayment of any
amount owed on Your Account. You may cancel Your Platinum Secure Mastercard
Credit Card at any time by paying any amounts owed on Your Account. To be
certain that Your entire balance and all advances on Your Account are paid, any
shares pledged may not be available to You for 30 days after You have cancelled
and any outstanding balance is paid in full.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for
each Feature Category for which You are approved. Unless You are in default,
any Credit Limits established for You will generally be self-replenishing as You
make payments.

Page 2 of 5

OTBS 016Y FRB_WEB ARKA (10/20)

You will keep Your unpaid balance within Your Credit Limit set by Us, and You will
pay any amount over Your Credit Limit on Our demand whether or not We authorize
the advances which caused You to exceed Your Credit Limit. Even if Your unpaid
balance is less than Your Credit Limit, You will have no credit available during any
time that any aspect of Your Account is in default.

other charges and subtract any payments, credits and unpaid Finance Charges. This
gives us the daily balance. Then, we add up all the daily balances for the billing cycle
and divide them by the number of days in the billing cycle. The Finance Charge for a
billing cycle is computed by multiplying the average daily balance subject to a Finance
Charge by the Monthly Periodic Rate.

JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for the
repayment of any amounts owed. If any Account access device, such as a Personal
Identification Number (PIN) is requested and approved, You understand that any
such Account access device(s) will be mailed to the Borrower that initiated such
request, at the address that We have on file. We may refuse to follow any
instructions which run counter to this provision.

You can avoid Finance Charges on purchases by paying the full amount of the entire
balance owed each month within 25 days of your statement closing date. Otherwise,
the new balance of purchases, and subsequent purchases from the date they are
posted to Your Account, will be subject to a Finance Charge. Cash advances and
balance transfers are always subject to a Finance Charge from the later of the date
they are posted to Your Account or from the first day of the billing cycle in which the
cash advance is posted to Your Account.

MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need only pay
the Minimum Monthly Payments, You understand that You have the right to repay at any
time without penalty. You also understand that You will only be charged periodic Finance
Charges to the date You repay Your entire balance. You may make larger payments
without penalty. Any partial payment or prepayment will not delay Your next scheduled
payment. All payments to Us must be in lawful money of the United States. We may apply
each payment to whichever Feature Category We wish. For all Feature Categories (except
Mastercard), payments will be applied first to any Late Charges owing, then to the Finance
Charge due, then to the outstanding principal balance. Mastercard Payments will be applied
in the following order: (a) any Finance Charges due; (b) any other fees and charges owing;
(c) any Late Charges owing; and then to (d) the balance bearing the lowest rate of interest,
and then to each successive balance bearing the next lowest rate of interest, until the
minimum payment is depleted. As permitted by law, any amounts paid in excess of the
Minimum Monthly Payment will first be applied to the balance bearing the highest rate of
interest, and then to each successive balance bearing the next highest rate of interest, until
the payment is depleted.
Any unpaid portion of the Finance Charge will be paid by subsequent payments and
will not be added to Your principal balance. You understand that any delay in the
repayment of Your unpaid balance will increase Your periodic Finance Charges and
any acceleration in the repayment of Your unpaid balance will decrease Your periodic
Finance Charges.
Personal Line of Credit Minimum Monthly Payments will be established and fixed at
the time of each advance at an amount equal to 2.00% of Your then outstanding
balance, subject to the lesser of $35.00 or Your balance.
Platinum Classic Mastercard, World Mastercard, and Platinum Secure Mastercard
Minimum Monthly Payments will be an amount equal to 2.00% of Your new unpaid
balance at the end of each billing cycle, subject to the lesser of $20.00 or Your
balance, plus any portion of the Minimum Payments shown on prior statement(s)
which remains unpaid, plus any amount that exceeds Your approved Credit Limit.
You may, by separate agreement, authorize Us to charge Your payment directly to
Your share or share draft account.
LATE CHARGE (EXCEPT FOR MASTERCARD). If Your payment is more than 7
days late, You will be charged the greater of 20.00% of the interest due or $35.00.
OTHER FEES AND CHARGES (EXCEPT FOR MASTERCARD). You will be charged
the following fees associated with the use of Your Account: (a) $32.00 for any check
(or other negotiable instrument used for payment) which is returned unpaid; and (b) a
$10.00 overdraft transfer fee FINANCE CHARGE for each such transfer You obtain.
FINANCE CHARGES (EXCEPT FOR MASTERCARD). A Finance Charge will be
assessed on any unpaid principal balance for each Feature Category of Your Account
for the period such balance is outstanding. Balances change each time advances are
made, payments are made or credits given under any Feature Category. The Finance
Charge begins to accrue on the date of each advance and there is no grace period.

MASTERCARD VARIABLE RATE. All credit advances are subject to a Variable Rate
which is based on the highest Prime Rate as published in the Money Rates section of
The Wall Street Journal in effect on the 25th day of each calendar month of each year
("Index") plus Our Margin. The Index plus the Margin equals the Interest Rate.
Changes in the Index will cause changes in the Interest Rate on the first day of the
billing cycle in the calendar month immediately following any such change in the
Index. Increases or decreases in the Interest Rate will cause like increases or
decreases in the Finance Charge and will affect the number of Your regularly
scheduled payments. Your Interest Rate will never be greater than 18.00% and will
apply to Your remaining principal balance.
OVERDRAFT PROTECTION. We may transfer funds in the amount necessary (or in
such increments as We may from time to time determine) to Your share draft account
by an advance on Your Personal Line of Credit Feature Category, subject to this
provision, to clear any overdraft on Your share draft account. Whether or not such
transfers occur will be controlled by this Agreement. In any event, You hold Us
harmless for any and all liability which might otherwise arise if the transfer does not
occur. Overdraft protection automatically ceases if this Agreement is ever cancelled
or terminated or Your Account is in default.
PERIODIC STATEMENTS. On a regular basis, You will receive a statement showing
all transactions on Your Account including amounts paid and borrowed since Your last
statement. We will mail You a statement each month in which there is a debit or credit
balance or when a Finance Charge is imposed. We need not send You a statement if
We feel Your Account is uncollectible or if We have started collection proceedings
against You because You defaulted. EACH STATEMENT IS DEEMED TO BE A
CORRECT STATEMENT OF ACCOUNT UNLESS YOU ESTABLISH A BILLING
ERROR PURSUANT TO THE FEDERAL TRUTH-IN-LENDING ACT.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under no
obligation to honor Your Convenience Checks if: (1) by paying a Convenience Check,
You would exceed Your Credit Limit; (2) Your Cards or Convenience Checks have
been reported lost or stolen; and/or (3) Your Account has been cancelled or has
expired. If a postdated Convenience Check is paid and, as a result, any other
Convenience Check is returned unpaid, We are not responsible for any resulting loss
or liability.
DEFAULT. You will be in default if: (a) You do not make any payment or perform any
obligation under this Agreement, or any other agreement that You may have with Us;
or (b) You should die, become involved in any insolvency, receivership or custodial
proceeding brought by or against You; or (c) You have made a false or misleading
statement in Your credit application and/or in Your representations to Us while You
owe money on Your Account; or (d) A judgment or tax lien should be filed against You
or any attachment or garnishment should be issued against any of Your property or
rights, specifically including anyone starting an action or proceeding to seize any of
Your funds on deposit with Us; and/or (e) We should, in good faith, believe Your ability
to repay Your indebtedness hereunder is or soon will be impaired, time being of the
very essence.

HOW TO DETERMINE THE FINANCE CHARGE (EXCEPT FOR MASTERCARD). For
all Feature Categories except Mastercard, the Finance Charge is determined by
multiplying Your unpaid balance at the close of each day in the billing cycle being
accounted for by the applicable Daily Periodic Rate. The unpaid balance is the balance
each day after payments, credits, and unpaid Finance Charges to that balance have
been subtracted and any new advances, or other charges have been added to Your
unpaid balance. These daily Finance Charges are then added together and the sum is
the amount of the Finance Charge owed for the Feature Category being accounted for.
The total Finance Charge You owe on Your Account for each billing cycle is the sum of
all the Finance Charges due for all applicable Feature Categories.

Upon any occurrence of default, We may, to the extent permitted by law, cancel Your
rights under this Agreement, require the return of all access devices and declare the
entire balance of every Feature Category of Your Account immediately due and
payable, without prior notice or demand.

MASTERCARD FINANCE CHARGES. In the case of any Credit Card transactions
under Your Platinum Classic Mastercard, World Mastercard, or Platinum Secure
Mastercard Feature Categories, the balances subject to the periodic Finance Charge
are the average daily transactions balances outstanding during the month (including
new transactions).

ENFORCEMENT. We do not lose Our rights under this or any related agreement if
We delay enforcing them. We can accept late payments, partial payments or any other
payments, even if they are marked "paid in full" without losing any of Our rights under
this Agreement. If any provision of this or any related agreement is determined to be
unenforceable or invalid, all other provisions remain in full force and effect.

To get the average daily balance, We take the beginning balance each day, add any
new balance transfers, cash advances, insurance premiums, debit adjustments or

NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move or
otherwise have a change of address.

Copyright Oak Tree Business Systems, Inc., 2007-2020. All Rights Reserved.

COLLECTION COSTS. In the event collection efforts are required to obtain payment
on this Account, to the extent permitted by law, You agree to pay all court costs,
private process server fees, investigation fees or other costs incurred in collection and
reasonable attorneys' fees incurred in the course of collecting any amounts owed
under this Agreement or in the recovery of any Collateral.

Page 3 of 5

OTBS 016Y FRB_WEB ARKA (10/20)

CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal Truth-InLending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure – Federal Truth-In-Lending Act" which is delivered together with this
Agreement or at a later date becomes an integrated part of this Agreement
And Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement.
By signing the application; or by using Your Account or any Account access device;
or by authorizing another to use Your Account, You agree to and accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide facts
to update information contained in Your original Account application or other financial
information related to You, at Our request. You also agree that We may, from time to
time, as We deem necessary, make inquiries pertaining to Your employment, credit
standing and financial responsibility in accordance with applicable laws and
regulations. You further agree that We may give information about the status and
payment history of Your Account to consumer credit reporting agencies, a prospective
employer or insurer, or a state or federal licensing agency having any apparent
legitimate business need for such information.
TERMINATION. Either You or We may cancel Your Account or any particular Feature
Category of Your Account, at any time, whether or not You are in default. You will, in any
case, remain liable to pay any unpaid balances according to the terms of Your Account.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of Arkansas except to the extent that such laws are inconsistent with controlling
federal law.
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any
time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.
SPECIFIC TERMS APPLICABLE TO YOUR PLATINUM
CLASSIC MASTERCARD, WORLD MASTERCARD,
AND PLATINUM SECURE MASTERCARD CREDIT CARDS
USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial institutions.
You agree not to use Your Card for illegal transactions including, but not limited to,
advances made for the purpose of gambling and/or wagering where such practices
are in violation of applicable state and/or federal law.

REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not liable for
the refusal or inability of merchants, financial institutions and others to accept the Cards
or Convenience Checks, or electronic terminals to honor the Cards or complete a Card
withdrawal, or for their retention of the Cards or Convenience Checks.
FOREIGN TRANSACTIONS. For transactions initiated in foreign currencies, the
exchange rate between the transaction currency and the billing currency (U.S. dollars)
will be: (a) a rate selected by Mastercard from the range of rates available in wholesale
currency markets for the applicable central processing date, which rate may vary from
the rate Mastercard itself receives; or (b) the government-mandated rate in effect for
the applicable central processing date.
Except for transactions made through the use of any World Mastercard Credit Card,
You will be charged 1.00% calculated on the final settlement amount for transactions
that are initiated in foreign countries or foreign currencies.
TRANSACTION SLIPS. Your monthly statement will identify that merchant, electronic
terminal or financial institution at which transactions were made, but sales, cash
advances, credit or other slips cannot be returned with the statement.
LATE CHARGE. If Your payment is not received by the payment due date, You will
be charged the lesser of: (a) $29.00 (this amount will be $40.00 if You have incurred
a late charge within six months of previously incurring a late charge); or (b) the amount
of the required minimum payment.
OTHER FEES AND CHARGES. You will be charged the following fees associated
with the use of Your Card: (a) the lesser of $30.00 for any check (or other negotiable
instrument used for payment) which is returned unpaid, or the required minimum
payment amount for the returned payment; (b) an amount equal to 5.00% of each
cash advance; and (c) for World Mastercard, a balance transfer fee FINANCE
CHARGE equal to 3.00% of each transfer.
LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit Cards
or Convenience Checks, You will immediately call Us at the telephone number shown
in this Agreement or write to Us at the address shown in this Agreement.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or
more refund it on Your written request or automatically deposit it to Your Share
Account after 6 months.
Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.

OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any
time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon Your
request, a Personal Identification Number (PIN) for use with participating Automated
Teller Machines (ATMs). This PIN is confidential and should not be disclosed to
anyone. You may use Your PIN to access Your Account and all sums advanced will
be added to Your Account balance. In the event a use of Your PIN constitutes an
Electronic Funds Transfer, the terms and conditions of Your Electronic Fund Transfer
Agreement may also affect Your rights.

What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown in
this Agreement. In Your letter, give Us the following information:





Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe what
You believe is wrong and why You believe it is a mistake.

You must contact Us:
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement is
the contract which solely applies to all transactions involving the Card.




UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us at the telephone number shown
in this Agreement or by writing to Us at the address shown in this Agreement. In any
case, Your liability will not exceed $50.00.

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay the
amount in question.

Within 60 days after the error appeared on Your statement.
At least 3 business days before an automated payment is scheduled, if You want
to stop payment on the amount You think is wrong.

What Will Happen After We Receive Your Letter
PRE-AUTHORIZED RECURRING CHARGES. You may, from time to time, establish
preauthorized recurring charges be made on Your Account. You understand that any
such preauthorized recurring charges will continue unless discontinued by You directly
with the service provider with whom You preauthorized the recurring charge.
To ensure that recurring preauthorized charges established and authorized by You
are not interrupted in the event that Your Card or other Access Device is reissued,
We may, but are under no obligation to do so, enroll Your account in automatic
account information update services that communicate new Card/Access Device
information to the service providers with whom You have established preauthorized
recurring charges, the purpose of which is to ensure charges You authorize continue
without interruption.

Copyright Oak Tree Business Systems, Inc., 2007-2020. All Rights Reserved.

When We receive Your letter, We must do two things:
1)
2)

Within 30 days of receiving Your letter, We must tell You that We received
Your letter. We will also tell You if We have already corrected the error.
Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.

While We investigate whether or not there has been an error:



Page 4 of 5

We cannot try to collect the amount in question, or report You as delinquent on
that amount.

OTBS 016Y FRB_WEB ARKA (10/20)





The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for
the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the merchant,
You may have the right not to pay the remaining amount due on the purchase. To use
this right, all of the following must be true:

After We finish Our investigation, one of two things will happen:




1)
If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send You a
statement of the amount You owe and the date payment is due. We may
then report You as delinquent if You do not pay the amount We think
You owe.

2)

3)
If You receive Our explanation but still believe Your bill is wrong, You must write to Us
within 10 days telling Us that You still refuse to pay. If You do so, We cannot report
You as delinquent without also reporting that You are questioning Your bill. We must
tell You the name of anyone to whom We reported You as delinquent, and We must
let those organizations know when the matter has been settled between Us. If We do
not follow all of the rules above, You do not have to pay the first $50.00 of the amount
You question even if Your bill is correct.

Copyright Oak Tree Business Systems, Inc., 2007-2020. All Rights Reserved.

The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more than
$50.00. (Note: Neither of these are necessary if Your purchase was based on
an advertisement We mailed to You, or if We own the company that sold You
the goods or services.)
You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that point,
if We think You owe an amount and You do not pay, We may report You as delinquent.

Page 5 of 5

OTBS 016Y FRB_WEB ARKA (10/20)

PRICING INFORMATION ADDENDUM
CREDIT CARD ACCOUNT
AGREEMENT AND DISCLOSURE
THIS IS YOUR ADDENDUM THAT CONTAINS PRICING INFORMATION FOR YOUR PLATINUM CLASSIC
MASTERCARD, WORLD MASTERCARD, AND PLATINUM SECURE MASTERCARD CREDIT CARDS.
PLEASE BE CERTAIN TO READ THIS ADDENDUM CAREFULLY AND NOTIFY US AT ONCE IF ANY
PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases

8.25% - 18.00%

Platinum Classic Mastercard:
based on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.

13.24% - 18.00%

World Mastercard:
based on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.

18.00%

Platinum Secure Mastercard:
This APR will vary with the market based on the Prime Rate.
Annual Percentage Rate (APR)
For Balance Transfers

Platinum Classic Mastercard: 8.25% - 18.00% based on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.
World Mastercard: 13.24% - 18.00% based on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.
Platinum Secure Mastercard: 18.00%
This APR will vary with the market based on the Prime Rate.

Annual Percentage Rate (APR)
For Cash Advances

Platinum Classic Mastercard: 8.25% - 18.00% based on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.
World Mastercard: 13.24% - 18.00% based on Your creditworthiness.
This APR will vary with the market based on the Prime Rate.
Platinum Secure Mastercard: 18.00%
This APR will vary with the market based on the Prime Rate.

Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days of Your statement closing date. We will begin charging interest on cash
advances and balance transfers on the transaction date.

Fees
Transaction Fees


Foreign Transaction
 Cash Advance
 Balance Transfer

Except World Mastercard, 1.00% of each transaction in U.S. Dollars.
5.00% of the advance.
For World Mastercard, 3.00% of each transfer.

Penalty Fees


Returned Payment
 Late Payment

Up to $30.00
Up to $40.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." In all cases,
see Your Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your
Account Agreement.

Copyright Oak Tree Business Systems, Inc., 2007-2020. All Rights Reserved.

Page 1 of 2

OTBS 016A Y FRB_Web ARKA (10/20)
Rev. (5/20)

FINANCE CHARGES. In the case of any transactions under Your Account, the balances subject to the periodic Finance Charge are the average daily transactions balances
outstanding during the month (including new transactions). Separate average daily balances are calculated for purchases, balance transfers, and cash advances (including
convenience checks).
To get the average daily balance for purchases, We take the beginning balance for purchases each day, add any new purchases, debit adjustments or other charges and
subtract any payments, credits and unpaid Finance Charges. This gives Us the daily balance for purchases. Then, We add up all the daily balances for purchases during
the billing cycle and divide them by the number of days in the billing cycle. This gives Us the average daily transactions balances for purchases.
To get the average daily balance for balance transfers, We take the beginning balance for balance transfers each day, add any new ba lance transfers, debit adjustments
or other charges and subtract any payments, credits and unpaid Finance Charges. This gives Us the daily balance for balance transfers. Then, We add up all the daily
balances for balance transfers during the billing cycle and divide them by the number of days in the billing cycle. This gives Us the average daily transactions balances for
balance transfers.
To get the average daily balance for cash advances (including convenience checks), We take the beginning balance for cash advances (including convenience checks) each
day, add any new cash advances, convenience checks, debit adjustments or other charges and subtract any payments, credits and unpaid Finance Charges. This gives Us
the daily balance for cash advances (including convenience checks). Then, We add up all the daily balances for cash advances (including convenience checks) during the
billing cycle and divide them by the number of days in the billing cycle. This gives Us the average daily transactions balances for cash advances (including convenience checks).
The Finance Charge for a billing cycle is computed by multiplying the average daily balance subject to a Finance Charge by the applicable Daily Periodic Rate times the number
of days in the billing cycle. You can avoid Finance Charges on purchases by paying the full amount of the entire balance owed each month within 25 days of Your statement
closing date. Otherwise, the new balance of purchases, and subsequent purchases from the date they are posted to Your Account, will be subject to a Finance Charge. Cash
advances and balance transfers are always subject to a Finance Charge from the later of the date they are posted to Your Account or from the first day of the billing cycle in
which the transaction is posted to Your Account.
Your Platinum Classic Mastercard is subject to a current variable Daily Periodic Rate of 0.022603% - 0.049315% (corresponding to an ANNUAL PERCENTAGE RATE of
8.25% - 18.00%), depending on Your creditworthiness.
Your World Mastercard is subject to a current variable Daily Periodic Rate of 0.036274% - 0.049315% (corresponding to an ANNUAL PERCENTAGE RATE of 13.24% 18.00%), depending on Your creditworthiness.
Your Platinum Secure Mastercard is subject to a variable Daily Periodic Rate of 0.049315% (corresponding to an ANNUAL PERCENTAGE RATE of 18.00%).
VARIABLE RATE. All credit advances are subject to a Variable Rate which is based on the highest Prime Rate as published in the Money Rates section of The Wall
Street Journal in effect on the 25th day of each calendar month of each year ("Index") plus Our Margin. The Index plus the Ma rgin equals the Interest Rate. Changes in
the Index will cause changes in the Interest Rate on the first day of the billing cycle in the calendar month immediately fol lowing any such change in the Index. Increases
or decreases in the Interest Rate will cause like increases or decreases in the Finance Charge and will affect the number of Your regularly scheduled payments. Your
Interest Rate will never be greater than 18.00% and will apply to Your remaining principal balance.
For Platinum Classic Mastercard, and World Mastercard Your Margin will be determined by Your creditworthiness, and for Platinum Classic Mastercard the Margin will be
2.75% - 14.74%, and for World Mastercard the Margin will be 7.74% - 14.74%. For Platinum Secure Mastercard the Margin will be 14.75%.

Copyright Oak Tree Business Systems, Inc., 2007-2020. All Rights Reserved.

Page 2 of 2

OTBS 016A Y FRB_Web ARKA (10/20)
Rev. (5/20)

